October 10, 2013



Lieutenant General Thomas P. Bostick
Commanding General and Chief of Engineers
U.S. Army Corps of Engineers
Major General Dean J. Milner
Deputy Commanding General for Operations
North Atlantic Treaty Organization Training Mission-Afghanistan
Major General Kevin R. Wendel
Deputy Commander
Combined Security Transition Command-Afghanistan
Major General Paul J. LaCamera
Commander
International Security Assistance Force, Regional Command-South




I am writing to alert you to problems with the design of the Weesh-Chaman (Weesh) border crossing point
in Kandahar province, Afghanistan, which is currently under construction. A nation’s ability to control its
borders is central to its ability to control the flow of licit and illicit goods and assess appropriate tariffs and
customs duties. Customs revenue is a major component of Afghanistan’s national budget. For example, in
the most recently completed Afghan fiscal year, customs revenues contributed approximately 44 percent
of Afghanistan’s annual national budget.

As part of an ongoing audit of U.S. Agency for International Development and Department of Homeland
Security Customs and Border Protection efforts to develop and strengthen Afghanistan’s capacity to
assess and collect customs revenue, we identified two design concerns related to the construction of the
Weesh border crossing point. First, the site has only one entry control point, even though current guidance
from the NATO Training Mission-Afghanistan/Combined Security Transition Command-Afghanistan (NTM-
A/CSTC-A) calls for two control points. Second, there are plans to install an inspection device at the site,
which may block one traffic lane and that does not have sufficient clearance to allow for efficient
inspection of many of the vehicles that travel through the border crossing. These design problems will
likely increase congestion. Increased congestion directly affects inspection efficiency and security within
the border crossing point. Immediate action is needed to address these issues. Resolving the issues
highlighted in this letter may also help NTM-A/CSTC-A and USACE address any similar issues related to the
design of six other ongoing border crossing point construction projects totaling approximately $38.4
million.

On October 3, 2013, we sent an embargoed draft of this letter to USACE, NTM-A/CTSC-A, U.S. Central
Command (CENTCOM), and the International Security Assistance Force, among others, informing them
that it would be released the following week. According to USFOR-A, nothing in this letter or its more
detailed enclosure is classified. However, at the request of senior USFOR-A and CENTCOM officials, we
agreed to restrict the release of the enclosure because of security concerns.

On October 9, 2013, prior to publication of this product, U.S. Forces-Afghanistan (USFOR-A) issued a press
release calling into question the accuracy of our draft letter. We strongly disagree with the assertions
included in this press release. For example, USFOR-A claims that the guidance requiring two entry control
points does not apply to border control points, but only applies to facilities that provide long-term housing
for personnel. However, the guidance in question was provided to SIGAR by CSTC-A/NTM-A officials in
    response to our specific, written request for “guidance indicating the number of entry control points at
    NTM-A/CSTC-A constructed border control points.” Moreover, there is nothing in the guidance document
    itself to indicate that it applies solely to facilities that provide long-term housing for personnel.

    USFOR-A’s press release also states that, in USFOR-A’s experience, the inspection device’s impact on
    traffic flow will be minimal. This view is not shared by officials from either the U.S. Army Corps of Engineers
    or NATO Regional Command-South, both of whom voiced serious concerns over installation of the device.
    In fact, Regional Command-South issued a formal letter of non-concurrence related to the device’s
    installation.

    Finally, USFOR-A’s press release notes that there will be a large site nearby where all trucks from Pakistan
    will cross-load their cargo to Afghan vehicles in accordance with Afghan government requirements.
    USFOR-A does not explain why it believes mention of this site is relevant to the problems we identified.
    However, the press release appears to imply that this site will ease traffic congestion at the border control
    point. Such a conclusion would be erroneous, as all trucks must first go through the border control point
    before reaching the trans-loading yard.

    Should you have any questions or need additional information, please contact Elizabeth Field, Assistant
    Inspector General for Audits & Inspections, at                  or                             , or
    Michael Welsh, Deputy Assistant Inspector General for Audits & Inspections, Kabul, at
           or                     . Thank you in advance for your attention to this matter.




    John F. Sopko
    Special Inspector General
        for Afghanistan Reconstruction




SIGAR 14-2-AL/Weesh Border Crossing Point Design Issues                                                     Page 2
